No. 21IN THE

Supreme Court of the United States
GROWTH ENERGY,
Petitioner,
v.
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF SERVICE
I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 4th day of October, 2021, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter as noted in the attached service
list.

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
BY OVERNIGHT COURIER

BRIAN H. FLETCHER
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2203
SupremeCtbriefs@usdoj.gov
BY FIRST-CLASS MAIL

PERRY M. ROSEN
UNITED STATES DEPARTMENT OF JUSTICE
ENVIRONMENT & NATURAL RESOURCES DIV.
ENVIRONMENTAL DEFENSE SECTION
P.O. Box 7611
Washington D.C. 20044
perry.rosen@usdoj.gov
Counsel for the United States Environmental Protection Agency
BY OVERNIGHT COURIER

ROBERT J. MEYERS
CROWELL & MORING LLP
1001 Pennsylvania Ave., NW
Washington, DC 20004-2595
(202) 624-2967
rmeyers@crowell.com
Counsel for American Fuel & Petrochemical Manufacturers
BY OVERNIGHT COURIER

KEVIN KING
COVINGTON & BURLING LLP
One CityCenter
850 Tenth St., NW
Washington, DC 20001-4956
(202) 662-5488
kking@cov.com
Counsel for American Motorcyclist Association, American Petroleum Institute,
Citizens Concerned About E15, Coalition of Fuel Marketers, and the National Marine
Manufacturers Association

BY OVERNIGHT COURIER

SUZANNE MURRAY
HAYNES AND BOONE, LLP
112 E. Pecan St., Suite 1200
San Antonio, Texas 78205
(210) 978-7433
Suzanne.Murray@Haynesboone.com
Counsel for Small Retailers Coalition
BY OVERNIGHT COURIER

JONATHAN BERRY
BOYDEN GRAY & ASSOCIATES PLLC
801 17th St., NW, Suite 350
Washington, DC 20006
(202) 955-0620
berry@boydengrayassociates.com
Counsel for Urban Air Initiative; the Farmers’ Educational & Cooperative Union of
America, d/b/a National Farmers Union; Farmers Union Enterprises, Inc.; Big River
Resources, LLC; Glacial Lakes Energy, LLC; Clean Fuels Development Coalition;
Fagen, Inc.; Jackson Express, Inc.; Jump Start Stores, Inc.; Little Sioux Corn
Processors, LLC; and South Dakota Farmers Union
BY OVERNIGHT COURIER

MATTHEW W. MORRISON
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 Seventeenth St., NW
Washington, DC 20036
(202) 663-8036
matthew.morrison@pillsburylaw.com
Counsel for the Renewable Fuels Association and the National Corn Growers
Association

